Word Count
As required by Supreme Court Rules, I certify that the Petition for Certiorari
contains 4255 words (excluding only the contents of the Appendix). “I declare
under penalty of perjury that the foregoing is true and correct."
Executed on Qj

r 18, 2019,

<Man Coulter, Petitioner
^20 Butler Crossing #3, PMB 172
Butler, Pennsylvania 16001
412-616-9505

Certificate of Service
I hereby certify that I have this day, the 18th day of October. 2019. served
three (3) copies of the Petition for Certiorari, upon Respondents at the address of
their Counsel, by pre-paid mail, along with one copy by email:
Rhonda J. Sudina
Robb Leonard Mulvihill
BNY Mellon Center
500 Grant Street, 23rd Floor
Pittsburgh, PA 15219
rsudina@rlmlawfirm.com

Jemi Coulter, Petitioner
^0 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505

RECEIVED
OCT 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

